                                     CLOSEOUT FOR M93010007




F
     ,!-I
     ta-

    - 1
                               informed OIG that he had received a l e G ; G b
         complainant, who is a faculty member in the Department o

         hoc reviewer on -which                  is entitled,
                                                                                              f
                                                                                                r

                                  the U n i v e r s i t y The complainant had served as an NSF ad

                                           The declined proposal was submitted by the subject, Dr.
        w h o is a f&.d@i&er in the ~e~artkent-                           at the university-.
         The complainant stated that the subject's proposd-&nt&ed two figures that &d been allegedly
         reproduced 6om the complainant's NSF award
       -")
                                                                                     1-1'
                                                                              entitled,
                                                                                                    -   . the




                            without permission, and that the subject had made false claims in his proposal.
                                                                                                              0




         Allegedly
             -   - he had  falsely claimed that certain genetic probes had been used by the complainant and
         a colleague (Dr. h              f t               h            e and were available to him from the
         colleague. The subject's pr<posal cited the figures and information as personal communications
         provided by the complainant and colleague.

               In response to OIG's request for information the subject said that he had been given the
       figures by the colleague with whom both he and the complainant were separately collaborating.
       He said the colleague had also provided him with the information about the genetic probes and
       offered to make these probes available to him if the proposal were funded. The colleague
       confirmed the subject's information and said that the figures contained facts found in commercial
       literature and publicly available. He said that he had requested the figures and information from
       the complainant for inclusion in the subject's proposal and had also sought and obtained
       permission to use them. He explained that he had originally planned to be a co-PI on the subject's
       proposal, but, ultimately, the subject had submitted it as the sole PI. Me had provided the subject
       with the materials received 6om the complJnant and told him that they had permission to use the
       material in the proposal.

                The complainant told OIG that he recalled providing the materials to the colleague, but
       did not remember being asked if they could be used in the subject's proposal. He qualified this
       latter remark by stating that his failure to recollect the request did not mean that the colleague had
       not asked and had not received permission from him.

               OIG concluded that the subject had been told that he had permission to reproduce the
       figures in his proposal and that he had accurately reported the information about the probes and
       their availability in his proposal. He had carehlly cited the sources of his information as the
       complainant and the colleague. The allegations of plagiarism and false statements in the subject's
       proposal have no substance. OIG also concluded that the allegations reduced to a dispute
       between the colleague and complainant about whether, when the complainant provided the
       information to the colleague, he had been asked and had granted permission for the figures

                                               Page % of 2                                M93-07
                             CLOSEOUT FOR M93010007
containing publicly available information to be used in a proposal submission. The colleague
claims this happened and the complainant cannot recall whether it did or not.

        OIG concluded that hrther inquiry or investigation would not resolve this issue. The
subject's proposal to NSF accurately reflects the source of the information it contains. The
allegations against the subject have no substance. The dispute between the colleague and
complainant, although unfortunate, is not resolvable and, in this case, not an issue of misconduct
in science.

       Therefore, OIG closed this inquiry, and no hrther action will be taken in this case.




cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                       Page 2 of 2
